0*/   &1/VU W         .WLU   UP.LAG   rtLA.   *-A&V   "ftS±   *V<?                              -   -. x               WrU V.L


 DOE F 1325,8
,(08-93)
  United States Government                                                                  Department of Energy


  Memorandum
       DATE:             April 25, 2006                                        Audit Report No.: OAS-L-06-13
      REPLY TO
      ATTN OF:           IG-32 (A05DN003)

      SUBJECT:           Workforce Planning at the Power Marketing Administrations

                TO:     Director, Office of Human Capital Management
                        Administrator, Bonneville Power Administration
                        Administrator, Southeastern Power Administration
                        Administrator, Southwestern Power Administration
                        Administrator, Western Area Power Administration

                       INTRODUCTION AND OBJECTIVE

                        The Department of Energy's (Department) four Power Marketing
                                                                                            Administrations
                        (Administrations) - the Bonneville Power Administration, Western
                                                                                              Area Power
                       Administration, Southeastern Power Administration, and Southwestern
                                                                                                  Power
                       Administration - account for over 4,700 employees. The Administrations
                                                                                                     market
                       electric power produced by Federal hydropower projects. In
                                                                                      addition, 3 of the
                       Administrations own and operate a combined total of 34,000
                                                                                       miles of transmission
                       lines that deliver power to 29 states. To provide these services,
                                                                                         the Administrations
                       need personnel possessing highly technical skills, including
                                                                                     clectrical engineers,
                       public utilities specialists, and dispatchers.

                       The percentage of employees eligible for retirement by 2010
                                                                                       at the Administrations ranges
                       from 38 to 42 percent. Consequently, the need to actively
                                                                                    and effectively manage human
                       capital resources is of paramount importance. According
                                                                                   to the Office of Personnel
                       Management and Department guidance, in order to address
                                                                                     workforce disruptions that
                       result from an aging Federal workforce, agencies are to
                                                                                prepare workforce plans that
                       identify: (1) workforce gaps in mission-critical functions by
                                                                                      competency and numbers of
                      employees; (2) strategies with measurable goals and milestones
                                                                                         for hiring, recruiting,
                      retaining, training, and preserving institutional knowledge;
                                                                                    and (3) a process to evaluate
                      progress in meeting workforce needs. Moreover, the Department's
                                                                                              Offlce of Human
                      Capital Management is responsible for providing direction
                                                                                    and oversight of human capital
                      policies and programs to Department elements.

                      Effective workforce planning bas been emphasized by
                                                                            the President's Management
                      Agenda Government-wide Initiative on Strategic Management
                      which applies to Federal agencies. Accordingly,                of Human Capital,
                                                                      the objective of our audit was to
                      determine whether the Administrations had workforce
                                                                            plans in place to meet their
                      changing workforce needs.
U4/   .i/Uo   inu   U .:i   rAA   44   , 't   . OU       U AVnWJ                        ---   Ii                UUC


                    CONCLUSIONS AND OBSERVATIONS

                 We found that although the Administrations had either
                                                                             formal or informal workforce
                 plans, they had not completed key steps necessary to meet
                                                                                 changing workforce needs.
                 Specifically, of the four Administrations reviewed:
                                                                         three did not fully identify mission
                 critical occupations or gaps in mission critical slills; none had consistently
                                                                                                   developed
                detailed action plans with quantifiable, measurable
                                                                        goals or milestones for filling
                workforce gaps; and three did not have a. formal system
                                                                              in place for periodically
                reevaluating their workforce plans.

                During the course of the audit, however, the Administrations
                                                                                initiated actions to address
                these key workforce planning steps. For example,
                                                                    the Southwestern Power Administration
                committed to prepare a formal workforce plan and the Bonneville
                                                                                      Power Administration
                initiated a Human Capital Plan that identifies mission critical skills.

                In order for the Administrations to continue to improve
                                                                          their workforce planning and
                address changing workforce needs, we suggest that
                                                                     each of the Administrations continue
                to develop their planning efforts and periodically
                                                                   re-evaluate progress in meeting their
                workforce needs. For example, during discussions
                                                                     on a draft of this report, Bonneville
                Power Administration agreed to continue implementing
                                                                           its Human Capital Plan, including
               developing more detailed workforce plans. To assist
                                                                       the Administrations in refining their
               workforce plans, we also suggest that the Office of
                                                                     Human Capital Management conducta
               review of the Administrations' progress and provide additional guidance,
                                                                                             as needed. In
               this manner, the Administrations will be more likely to maintain their operational
               readiness.

               SCOPE AND METHODOLOGY

                The audit was conducted from February 2005 to
                                                                  March 2006. The scope of the audit
                included information obtained from Fiscal Year 2001
                                                                       through March 2006 on workforce
                planning efforts at the four Administrations and guidance
                                                                             and oversight from the Office of
                Human Capital Management. To accomplish our
                                                                   objective, we reviewed the
                Administrations' workforce planning efforts along
                                                                    with the applicable laws, regulations,
               policies, and procedures. .We also interviewed personnel
                                                                            responsible for workforce
               planning at the Administrations and the Office of
                                                                  Human Capital Management.
               We conducted the audit in accordance with generally
                                                                      accepted Government auditing
               standards for performance audits and included tests
                                                                    of internal controls and compliance
               with laws and regulations to the extent necessary to satisfy the audit objective.
                                                                                                  Because
               our review was limited, it would not necessarily
                                                                 have disclosed all internal control
               deficiencies that may have existed at the time of our audit.
                                                                              We did not rely on computer
              processed data; therefore we did not conduct reliability assessments on the data. Finally,
              we assessed the Department of Energy's compliance
                                                                     with the Government Performance
              and Results Act of 1993, and we determined that
                                                                 the Office of Human Capital
              Management established performance measures to ensure
                                                                           that the Administrations are
              implementing the President's Initiative on Strategic Management
                                                                                   of Human Capital.




                                                     2
We discussed the audit results with the Administrations and
                                                              Office of Human Capital
Management in April 2006. Because no formal recommendations
                                                                    are being made in this
letter report, a formal response is not required. We appreciate the cooperation of your
stalT.




                                      Fredrick Pieper, Director
                                      Energy, Science and Environmental
                                       Audits Division
                                      Office of Inspector General
Attachment
cc:     Deputy Secretary
        Under Secretary for Energy, Science and Environment
       'Chief of Staff
        Power Marketing Liaison Office
        Bonneville Power Administration Liaison Office




                                  3
